SEMIANNUAL REPORT TO THE CONGRESS
                       .
  The Library of Congress March 31, 2009
        Office of the Inspector General
 The Library of Congress was established in 1800 when the American government moved to Washington, DC. The Thomas Jeﬀerson
 building, the ﬁrst separate Library building, was completed on time and under budget in 1897, at an approximate cost of $6.3 million.
 The new building was an unparalleled national achievement; its 23-carat gold-plated dome capped the “largest, costliest, and safest” library
 building in the world; more than 40 painters and sculptors produced commissioned works of art. Dubbed the “Temple of the Arts,” the
 Jeﬀerson immediately met with overwhelming approval from the American public. It was known as the Library of Congress building until
 1980, when it acquired its current designation as the Thomas Jeﬀerson building.

 Two design competitions resulted in an Italian Renaissance style structure proposed by Washington architects John L. Smithmeyer and
 Paul J. Pelz. Both architects were dismissed during the building’s construction and eventually replaced by Edward Pearce Casey. Civil
 engineer Bernard R. Green and Casey’s father, Brigadier Gen. Thomas Lincoln Casey, supervised the construction.

 The Jeﬀerson combines sculpture, mosaic, paintings, and architecture on a scale unsurpassed in any American public building. When
 the building came in under budget, Casey and Green seized the opportunity to turn this already remarkable building into a cultural
 monument by using the remaining funds to further embellish it with works of art.

 Since its original construction, three of the original four interior courtyards have been ﬁlled; two became bookstacks, and one now houses
 the Coolidge auditorium and Whitall Pavilion. In addition, the east side of the building was extended to provide additional space. The
 Jeﬀerson and John Adams buildings were renovated in the decade from 1986 to 1995 at a cost of about $81.5 million.




 - From the Encyclopedia of the Library of Congress: For Congress, the Nation & the World, John Y. Cole and Jane Aikin, eds., 2005.

COVER: MAIN READING ROOM OF THE THOMAS JEFFERSON BUILDING, LIBRARY OF CONGRESS
PHOTO BY MICHAEL DERSIN
   April 30, 2009


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended March 31, 2009.


In the last six months we prepared reports on the IT strategic planning process, inventory management at the Landover
Warehouse, collections security in the Rare Books and Special Collections division, collections security and preservation
controls for the Library’s top treasures, and the Library’s and Madison Council’s ﬁscal year 2008 ﬁnancial statements.
We conducted investigations on topics such as the misuse of library computers and networks and various alleged
violations of ethics rules and Library regulations. In addition, we began posting our past audit and semiannual reports
on our Web site (www.loc.gov/about/oig). So far, we have posted most ﬁscal 2008 and 2009 reports, and are working
toward posting reports back to 2001 over the next few months.


We are pleased to report that Library management implemented 25 of our recommendations in this reporting period,
demonstrating its continuing commitment to improvement.


In the next six months, we will report on in-progress reviews of the Library’s human resources operations, records retention
management, eﬀorts to “green” the Library, and other topics.


We appreciate the cooperative spirit Library managers and staﬀ have shown during our reviews.




Karl W. Schornagel
Inspector General
          Table of Contents


          Introduction and Definitions ......................................................................................................                                1
          Audits, Surveys, and Reviews............................................................................................................                           2
                 IT Strategic Planning....................................................................................................................................   2
                 Inventory Management ...................................................................................................................................    2
                 Rare Book and Special Collections Security...................................................................................................               4
                 Top Treasures Security and Preservation Controls .........................................................................................                  5
                 Library of Congress Fiscal Year 2008 Financial Statements...............................................................................                    6
                 Madison Council Fiscal Year 2008 Financial Statements................................................................................                       7
          Investigations........................................................................................................................................ 9
                 Signiﬁcant Criminal and Administrative Investigations..................................................................................                     10
                 Follow-up on Investigative Issues from Prior Reporting Periods.......................................................................                       12
          Unimplemented Recommendations.................................................................................................                                     14
          Implemented Recommendations.......................................................................................................                                 20
          Funds Questioned or Put to Better Use.........................................................................................                                     24
          Instances Where Information or Assistance Requests Were Refused....................................                                                                25
          Status of Recommendations Without Management Decisions................................................                                                             25
          Significant Revised Management Decisions.................................................................................                                          25
          Follow-up on Prior Period Recommendations............................................................................... 25
          Significant Management Decisions With Which OIG Disagrees .............................................                                                            25
          Other Activities..................................................................................................................................                 26
                 Inspector General Reform Act of 2008...........................................................................................................             26
                 OIG Loses Authority to Carry Firearms........................................................................................................               27
          Review of Legislation and Regulations.........................................................................................                                     28




Facing Page: Circular reader desks and alcoves in the main reading room, Thomas Jefferson Building
Photo by Michael Dersin
We perform many types of services; among them:


Attestations,       which involve examining, reviewing, or applying agreed-
upon procedures on a subject matter, or an assertion about a subject matter.
Attestations can have a broad range of ﬁnancial or nonﬁnancial focuses, such
as the Library’s compliance with speciﬁc laws and regulations; assertions or
assumptions made in a cost/beneﬁt, breakeven, or requirements analysis;
validation of performance against performance measures; or reasonableness of
cost.


Financial Audits, which determine whether ﬁnancial statements
present fairly the ﬁnancial position, results of operations, and cash ﬂows in
conformity with generally accepted accounting principles, and whether an
entity has adequate internal control systems and complies with applicable laws
and regulations.


Investigations,        which are conducted based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of ﬁnancial assistance,
and others responsible for handling federal resources. Violations of Library
regulations or fraud committed against the Library can result in administrative
sanctions and/or criminal or civil prosecution.


Nonaudit Services, which are equivalent to consulting services in the
private sector and usually involve providing advice or assistance to Library
managers without necessarily drawing conclusions, or making recommendations.
Auditors are cautious when performing nonaudit services because providing
them may jeopardize the independence needed to later audit that subject area.

Performance Audits,             which address the eﬃciency, eﬀectiveness, and
economy of the Library’s programs, activities, and functions; provide information
to responsible parties to improve public accountability; facilitate oversight and
decision making; and initiate corrective action as needed.




                                    Facing Page: African and Middle Eastern reading room, Thomas Jefferson Building
                                    Photo by Carol M. Highsmith
Introduction and Definitions

The mission of the Office of the Inspector General is to
promote economy, efficiency, and effectiveness by detecting
and preventing waste, fraud, and abuse.
To accomplish our mission, we conduct audits and investigations.


Our philosophy is to be proactive. We believe this approach results in a more eﬃcient use of resources by detecting
and preventing problems early. Accordingly, we are following several key projects throughout the Library and rendering
assistance and making recommendations as needed.


Our staﬀ is educated and certiﬁed in various disciplines. We are, collectively, four certiﬁed public accountants, two
attorneys, one certiﬁed internal auditor, four special agents, one investigator, one Master of Library Science, one MBA, and
other highly qualiﬁed staﬀ.


Our goals, objectives, strategies, and performance indicators can be found in our Strategic Plan, available on our Web site
at www.loc.gov/about/oig.




                                                                                       Semiannual Report to the Congress 1
       Audits, Surveys, and Reviews

       Library-Wide                                                   •         duplication of IT eﬀorts and acquisitions was
                                                                      taking place due to an overall lack of Library strategy for
       Information Technology Strategic Planning: A
       Well-Developed Framework is Essential to                       prioritizing and budgeting for IT investments;
       Support The Library’s Current and Future IT Needs
       Special Project No. 2008-PA-105                                •        ITS was a second–level Library organization and
       March 2009                                                     did not have the mandate or authority to enforce proper
       We engaged a ﬁrm specializing in information technology        Library-wide IT governance;
       (IT) and strategic plan assessments, A-Tech Systems, Inc.
       (A-Tech), to evaluate and report on the eﬀectiveness of IT     •         the Library lacked an Enterprise Architecture
       strategic planning at the Library of Congress. The ﬁrm         (EA) program which should be combined with the Library
       focused on:                                                    strategy for implementing future technology; and

       •         how the Strategic Plan of the Library’s Oﬃce of      •        ITS had room to improve its customer service.
       Strategic Initiatives (OSI) addressed the recommendations
       to the Library contained in the National Research Council      A-Tech believed its ﬁndings were largely attributable to
       report, LC21: A Digital Strategy for the Library of Congress   an unclear sense of how IT planning ﬁt into the Library’s
       (the LC21 report);                                             mission and that a holistic view of it needed to be adopted.
                                                                      The ﬁrm’s principal recommendations included aligning
       •         whether the OSI Strategic Plan was meeting the       the IT Strategic Plan directly with the same goals as the
       Library’s current and future needs;                            Library’s Strategic Plan, taking inventory of all existing
                                                                      IT systems to prioritize upgrades and identify new
       •        the validity of the assumptions, data, and            projects, establishing a Chief Information Oﬃcer (CIO)
       conclusions of the OSI Strategic Plan; and                     who performs only IT-related functions and reports to
                                                                      the Librarian, designating an organization for IT policy
       •         how the organizational placement and structure       responsibilities and corresponding enforcement authority,
       of the Library’s Information Technology Services (ITS)         establishing an EA program to provide a roadmap for
       oﬃce compared to IT elements of other government               implementing future technology, and soliciting input from
       agencies and similarly staﬀed corporate organizations.         Library service and support units on ways to improve the
                                                                      eﬃciency and eﬀectiveness of ITS’ customer service.
       A-Tech’s report stated that the Library has made many
       technology improvements since the LC21 report was              Management generally agreed with the report’s
       published in 2000. Among other accomplishments,                recommendations, although it postponed a decision on
       the Library has migrated from mainframe systems,               the organizational placement of ITS as it develops an
       standardized network infrastructure, built a secure ﬁnancial   appropriate organizational solution.
       hosting environment, and implemented a system life-cycle
       development process. However, despite this progress,           Library-Wide
                                                                      Integrated Support Services
       A-Tech also reported that the Library’s IT strategic
       planning was neither well-integrated with other essential      Inventory Management Problems Continue,
       Library planning components nor instituted Library-wide.       Senior Management Attention is Crucial

       More speciﬁcally, it found that:                               Audit Report No. 2009-PA-102
                                                                      March 2009

       •        IT strategic planning was not a unifying force at
                                                                      Over the past ﬁve years, the Oﬃce of the Inspector
       the Library, not directly linked to the Library’s Strategic
                                                                      General has been evaluating the eﬃciency of space usage
       Plan, and did not provide a forward–looking view;

2   Semiannual Report to the Congress
and the eﬀectiveness of inventory and security controls          determine how much of it should be removed until it
at the Library’s 313,802 square foot leased warehouse in         completes an inventory of its materials (FD&C plans to
Landover, Maryland. In March 2005 and June 2006, we              have the inventory completed in June 2009). While ISS
reported on inventory and warehouse ineﬃciencies that            may not have suﬃcient authority to require service units
have caused the Library to lease more warehouse space than       to control their inventory levels, it does have this authority
it needed. We initiated this audit to update our previous        over its own divisions.
work and identify the progress Integrated Support Services
(ISS) and the service units have made in improving the           ISS is Still not Processing Excess Computer Equipment
Library’s warehousing operations.                                Eﬃciently—ISS weaknesses in processing excess computers
                                                                 which we identiﬁed more than two and a half years ago
The ﬁndings below provide details on signiﬁcant issues we        have still not been satisfactorily addressed. We observed
identiﬁed through this audit.                                    hundreds of computers already prepared for donation to
                                                                 the Computers for Learning Program that had been sitting
Despite ISS’ Eﬀorts, Excess Inventory is Still Held—Service      at the warehouse for up to 21 months. In comparison,
units continue to maintain many items in their inventories       other agencies generally process excess computer equipment
that were acquired more than ﬁve years ago and likely have       within four months or less. We recommended that ISS
little current demand. ISS has attempted to make service         1) develop performance measures for the processing of
units manage their warehouse space more eﬃciently by             excess property and 2) determine the feasibility of using an
establishing a ﬁxed amount of storage space for each service     interagency program to dispose of excess computers.
unit. However, the Logistics policy has not fully motivated
service units to manage their warehouse spaces eﬃciently.        Publishing Oﬃce Asked to Make Retention Decisions
We estimated that improved warehouse eﬃciency could              for Materials Used by Other Oﬃces—The Library is
save the Library as much as $1 million over ﬁve years.           spending almost $100,000 per year to store publications,
                                                                 some of which have been held for more than ten years
ISS has not Provided the Guidance and Oversight Needed           with little or no current demand. This has occurred
to Ensure Eﬃcient Inventory Management—ISS and                   primarily because disposition decisions on excess copies
the service units have not developed and implemented             of publications have been improperly assigned to the
strong inventory control policies and ISS has not provided       Publishing Oﬃce. While the Publishing Oﬃce produced
service units with useful data on storage costs or inventory     many of the publications, they were produced for other
turnover. Consequently, service units are not considering        Library oﬃces and oﬃcials from those oﬃces, not the
storage costs in their purchasing and retention decisions        Publishing Oﬃce, have the required knowledge about the
and continue to hold excessive amounts of materials. To          demand for their publications. We recommended that ISS
ensure that service units retain the appropriate amount          expand its IntelliTrack inventory system to include the
and types of items, we recommended the Library develop           Library divisions that have publications that are held at the
a regulation that provides retention guidance and allocate       warehouse.
the applicable warehouse lease cost to each service unit.
                                                                 ISS management generally concurred with the conditions
FD&C Has Not Developed a Plan for Using Materials It             we reported and our recommendations.          However,
Holds at Landover—ISS’ Facility Design & Construction            management did not agree with us on the causes and
(FD&C) division occupies 40 percent of the warehouse’s           eﬀects for some of the conditions, and with some of our
space and holds the greatest amount of new materials             conclusions.
stored in the warehouse longer than ﬁve years. FD&C
realizes that some of its inventory is obsolete, but it cannot



                                                                                         Semiannual Report to the Congress 3
       Library Services                                                  circumstances in which markings evidencing Library
       Rare Book and Special Collections Division                        ownership are absent. The existing system of accounting
       Rare Book and Special Collections’                                for collection items on loan outside of the division is also
       Internal Control Requires Improvements                            inadequate. A new system should be developed which
       to Reduce the Risk of Losses
                                                                         appropriately segregates responsibilities and provides useful
                                                                         reports and eﬀective management oversight for items on
       Audit Report No. 2008-PA-101
       March 2009                                                        loan for extended periods. Additionally, procedures
                                                                         for preparing outgoing RBSC mail are weak and are
       Over its life, the Library has accumulated a world-               jeopardizing the collection. New outgoing mail procedures
       renowned collection of rare books and special collections         which segregate mail-preparation responsibilities should be
       which contains over 800,000 items that document Western           documented.
       and American traditions of life and learning. In addition
       to its size, the collection’s invaluable and, in some cases,      Specially Trained and
       irreplaceable contents present Library management with            Vetted Staﬀ Should
       the challenging task of protecting and preserving it from         Patrol the Collections
       a variety of threats.                                             After         Hours—A
                                                                         signiﬁcant result of
       We conducted an audit of the security policies and                the impending merger
       procedures for protecting collection items managed by             of the Library Police
       the Library’s Rare Book and Special Collections Division          and the USCP is that
       (RBSC). We found that those policies and procedures               Library management
       were well–designed and eﬀectively protecting the collection       no longer controls
       against some threats. However, we also identiﬁed weaknesses       police protection at the
       in internal control which exposed the collection to certain       Library. The USCP
       other threats. Additionally, we determined that the merger        now manages and
       of the Library Police and the U.S. Capitol Police (USCP)          determines priorities
       presents new challenges to Library management with                regarding the Library’s
       respect to monitoring and safeguarding against after-hours        police       protection.
       environmental threats to the collection. This report was          As such, after-hours
       marked “not for public release,” and as a result, certain         monitoring            for
       verbiage from the audit report has been altered or omitted        environmental threats
       in order to be published in this semiannual report. Our           to the collections (e.g.
       signiﬁcant ﬁndings and recommendations follow.                    roof leaks), which had
                                                                         been aﬀorded reliable
       Library Management Should Improve RBSC Internal
                                                                         attention by the Library
       Controls to Reduce Exposure to Certain Losses—We found
                                                                         Police     before     the
       certain vulnerabilities inherent in the process the Library
                                                                         merger, may no longer
       currently employs in the RBSC. Control deﬁciencies in
                                                                         be given consistent
       some areas make the collection vulnerable; these areas
                                                                         police priority. Staﬃng limitations or other emergencies
       were further discussed in the audit report. There is also
                                                                         could now take precedent. Therefore, Library management
       inadequate segregation of duties for tracking and handling
                                                                         should work in consultation with USCP leadership to
       a new acquisition between the time of its receipt and the
                                                                         identify those areas where protection of the collection may
       time of its arrival in Cataloging. Moreover, the Library
                                                                         require special Library coverage and formulate strategies
       lacks an independent system for tracking new acquisitions
                                                                         to ensure the Library’s mission to preserve and protect the
       at that stage. This situation is further exacerbated by certain
                                                                         collections is fulﬁlled.
                                                                             Above: A sampling of the more than 800,000 items in
                                                                             the Rare Book and Special Collections Division
4   Semiannual Report to the Congress                                        Photo by Carol M. Highsmith
Library management substantially agreed with the majority       Overall, we determined that the Library’s security and
of our ﬁndings and recommendations.                             preservation controls for safeguarding its Top Treasures
                                                                were generally adequate and eﬀective, and exceeded
                                                                corresponding controls applied at other institutions. We
Library Services
                                                                also determined that the Library was taking eﬀective steps
Top Treasures: Security and Preservation                        before acquiring such items to ensure their authenticity, and
Controls are Adequate, But Some
Improvements Should be Made                                     in maintaining such items in the collections to prevent their
                                                                theft. However, we believe the Library needs to strengthen
Audit Report No. 2008-PA-103
January 2009
                                                                its controls for its Top Treasure items to further (1) decrease
                                                                the risk of their theft, mutilation, and destruction, (2)
The Library of Congress holds in trust for the American         increase assurance that preservation eﬀorts are eﬀective,
people documents associated with George Washington,             and (3) increase assurance that items are authentic.
                                      James         Madison,
                                      Thomas        Jeﬀerson,   Overall Security is Eﬀective, but Internal Controls Should be
                                      George          Mason,    Strengthened to Reduce the Risk of Theft and Mutilation—
                                      Abraham Lincoln,          Four areas came to our attention through this audit in
                                      and       Christopher     which procedures to strengthen overall security controls for
                                      Columbus, among           the Top Treasures should be developed or improved. First,
                                      others.       A select    Library Services needs to establish criteria which provide
                                      few of the Library’s      a speciﬁc deﬁnition for Top Treasure collection items and
                                      collection       items–   clearly deﬁne a process to nominate/transfer collection
                                      which if lost or          items to the Top Treasure category. Second, it needs to
                                      stolen would cause        prohibit certain types of access to these materials. Third,
                                      irreparable harm to       it needs to reevaluate the security clearance designations
                                      the cultural heritage     of the staﬀ members who have authorized vault access and
                                      of our nation–have        occupy non-sensitive rather than public trust positions.
                                      been designated as        Furthermore, the Library should consider revising its
                                      “Top        Treasures.”   regulations dealing with position sensitivity designations to
                                      The Library stores        address more clearly positions providing access to priceless
                                      its Top Treasures         collection items. Finally, Library Services needs to ensure
                                      with higher degrees       that it maintains accurate access records.
                                      of security and
                                      preservation controls     The Library’s Preservation of its Top Treasures is World-
                                      than those provided       Class—We determined that the Preservation Directorate
                                      for less valuable         eﬀectively (1) established plans to safeguard the Top Treasures
                                      items. In this report,    during emergencies, (2) ensures that environmental risks to
                                      we evaluated the          the treasures are reduced to the extent possible, and (3)
                                      physical security and     assesses the eﬀectiveness of its preservation eﬀorts over
preservation controls that the Library uses to protect and      time. The Image Permanence Institute (IPI) recognizes
preserve its Top Treasures. We also examined controls the       the Library’s work in preserving its Top Treasures as world-
Library uses to ensure that these items are authentic. Due      class. Similarly, Smithsonian Institution oﬃcials consider
to the sensitive nature of our ﬁndings, this audit report was   the Library the industry leader in that regard. We also
marked as “not for public release.” Some of the ﬁndings         found that the Library’s emergency planning work for the
and recommendations discussed in this semiannual report         treasures compared favorably to the agencies we used as
have been modiﬁed or omitted.                                   benchmarks.

                                                                                        Semiannual Report to the Congress 5
       Our testing indicated that the Conservation Division             of internal controls over safeguarding its collections assets.
       was responsibly limiting the treasures’ exposure to light.       The auditors’ ﬁndings are summarized below.
       Likewise, the Conservation Division was in the process
       (about 90% completed at the time of our audit) of preparing      Internal Controls Over Financial Reporting—The auditors
       very detailed records for every Top Treasure item. Such          considered internal controls in planning and performing
       detailed records will provide a baseline to the directorate to   the audit and as a result identiﬁed a signiﬁcant deﬁciency.
       help it assess its preservation eﬀorts.                          In their report they noted multiple control issues in the
                                                                        Library’s current procedures for property and equipment
       The Library Needs Controls to Detetermine Authenticity—          accountability where adjustments were made to account
       The Library is taking eﬀective steps to establish the            balances without a qualitative assessment of the adjustments’
       authenticity of valuable and rare items before acquiring         causes. The Library has since implemented new procedures
       them and to prevent its Top Treasures from being stolen.         for handling property and equipment.
       However, it does not have suﬃcient controls to detect
       certain threats. We recommended that Library Services            Compliance and Other Matters—Library management
       conduct periodic examination of the Top Treasures to             is responsible for complying with applicable laws and
       conﬁrm their authenticity.                                       regulations. The auditors are responsible for testing
                                                                        compliance with selected provisions of laws and regulations
       Management generally agreed with our ﬁndings and                 that have a direct and material eﬀect on the ﬁnancial
       recommendations.                                                 statements as well as certain other laws and regulations
                                                                        speciﬁed in Oﬃce of Management and Budget guidance.
                                                                        The auditors found no instances of noncompliance that
       Library of Congress                                              are required to be reported under Generally Accepted
       Fiscal Year 2008 Financial Statements                            Government Auditing Standards (GAGAS).
       Audit Report No. 2008-FN-101
       March 2009                                                       Management’s Assertion about the Eﬀectiveness of Internal
                                                                        Controls over Safeguarding Collections Assets—In its
       Under contract with our oﬃce, Kearney & Company, an              ﬁnancial statements, the Library includes a stewardship
       independent public accounting ﬁrm, audited the Library’s         report on the collections of heritage assets, and an
       Consolidated Balance Sheets as of September 30, 2008             assertion about the eﬀectiveness of corresponding internal
       and 2007; the related Consolidated Statements of Net             controls. Management reported that it could not provide
       Costs, and Changes in Net Position; and the Combined             reasonable assurance that the internal control structure
       Statements of Budgetary Resources for the ﬁscal years then       over safeguarding collections’ assets against unauthorized
       ended. In the auditors’ opinion, the ﬁnancial statements,        acquisition, use, or disposition was completely eﬀective,
       including the accompanying notes, presented fairly in            and could not assert that collections’ inventory controls
       all material respects, the ﬁnancial position of the Library      were fully implemented during the in-processing and in-
       and its net costs, changes in net position, and budgetary        storage life cycles. The auditors’ examination determined
       resources for the years then ended, in conformity with           that management’s assertions were fairly stated.
       accounting principles generally accepted in the United
       States.
       The auditors also performed tests of compliance with laws
       and regulations; considered internal controls over ﬁnancial
       reporting and compliance; and in a separate report,
       examined management’s assertion about the eﬀectiveness




6   Semiannual Report to the Congress
James Madison Council Fund
Fiscal Year 2008 Financial Statements

Audit Report No. 2008-FN-101
March 2009

The James Madison Council is an advisory body of public-
spirited individuals who contribute ideas, expertise, and
ﬁnancial support to promote the Library’s collections and
programs. The James Madison Council Fund (Fund) was
established in 1989 to encourage contributions not only
for current programs, but permanent endowments that
will impact the collections and programs in the future.

Under contract with our oﬃce, Kearney & Company
audited the Fund’s FY 2008 ﬁnancial statements and issued
its Independent Auditor’s Report. The audit included the
Fund’s statement of ﬁnancial position as of September
30, 2008, and the related statements of activities and cash
ﬂows. The auditors concluded that the ﬁnancial statements
were presented fairly in all material respects, and in
conformity with generally accepted accounting principles.
The auditors found no material weaknesses in internal
controls over ﬁnancial reporting, nor any instances of
noncompliance with laws and regulations that are required
to be reported under GAGAS.

For both the Library of Congress and Fund ﬁnancial
statement audits, we performed the following steps to
ensure the quality of Kearney & Company’s work:

•        reviewed the auditor’s approach and planning of
         the audits,
•        reviewed signiﬁcant workpapers,
•        evaluated the qualiﬁcations and independence of
         the auditors,
•        monitored the progress of the audits at key
         points,
•        coordinated meetings with Library
         management to discuss progress, ﬁndings, and
         recommendations,
•        performed other procedures we deemed
         necessary, and
•        reviewed and accepted Kearney and Company’s
         report.




                                                              Semiannual Report to the Congress 7
8   Semiannual Report to the Congress
  Investigations

   During the reporting period we opened 40 investigations and closed 65. We referred two cases to the U.S. Attorney’s
   Oﬃce; one was accepted, and one declined. We forwarded seven cases to Library management for administrative action.
   Case and Hotline activity are detailed below:

    Table 1:             Investigation Case Activity

                                                    Criminal/Civil          Administrative             Total
    From Prior Reporting Period                             14                   38                      52
    Opened                                                  23                   17                      40
    Closed                                                  21                   44                      65


    End of Period                                           16                   11                      27



    Table 2:             Hotline Activity

                                                                                       Count
    Allegations received                                                                 1
    Referred to management for action                                                    -
    Opened as investigations                                                             1
    Closed with no action                                                                -




Facing Page: The muse Polyhymnia, goddess of the sacred song, by Edward
Simmons. First floor of the Northwest corridor, Thomas Jefferson building
Photo by Carol M. Highsmith

                                                                                         Semiannual Report to the Congress 9
       Significant Criminal and                                         Embezzlement
       Administrative Investigations
                                                                        During the investigation of embezzlement from the
       Unauthorized Removal of Books
                                                                        Library’s Retail Marketing Oﬃce Store discussed in the
                                                                        previous paragraph, a second subject was identiﬁed. Our
       Library staﬀ reported that an individual had taken two
                                                                        investigation revealed that this employee was stealing cash
       1920s reference books from a Library reading room
                                                                        from the register by not ringing up some of the sales in the
       without authorization and had signed a call slip identifying
                                                                        register and taking the proceeds for personal use.
       himself only as “staﬀ.” We determined from the reading
       room video that the individual had displayed the books to
                                                                        During this reporting period, this subject pled guilty and
       staﬀ as he left but they were distracted and failed to notice
                                                                        was sentenced to 30 months of probation, ordered to pay a
       him. The video from the building exit inspection point
                                                                        $1,000 ﬁne, and ordered to make $2,000 of restitution to
       showed the individual oﬀering the books for inspection to
                                                                        the Library of Congress. The employee voluntarily retired
       a USCP oﬃcer who appeared to be texting as he waived
                                                                        prior to an adverse action.
       the individual on. We identiﬁed the individual removing
       the items as a new congressional employee who stated
                                                                        Identity Theft
       that he did not know that reference books were not to be
       removed.
                                                                        We received an allegation from a Library of Congress
                                                                        employee who was the victim of identity theft. Our
       We provided video of the oﬃcer to his supervisor for
                                                                        investigation revealed that the employee’s personal
       appropriate action. We also provided video of the reading
                                                                        identifying information was used multiple times for
       room staﬀ to management to improve staﬀ awareness and
                                                                        fraudulent credit applications from a computer at a
       conducted recurrent collection security training jointly with
                                                                        residence in Maryland.
       the Oﬃce of Security and Emergency Preparedness for all
       staﬀ in the division where the reading room is located.
                                                                        We obtained and served a search warrant on the residence
                                                                        where the fraudulent credit applications were originating
       Embezzlement
                                                                        and seized a signiﬁcant amount of evidence. A criminal
                                                                        records check indicated that the subject of the investigation
       We received an allegation that a cashier in the Library’s
                                                                        had previously been charged with identity theft.
       Retail Marketing Oﬃce Store was stealing cash. Our
       investigation conﬁrmed that the employee was stealing cash
                                                                        We submitted an aﬃdavit for an arrest warrant but
       from the register by creating fraudulent refund transactions
                                                                        subsequently withdrew it after our agents lost their ability
       and taking the proceeds. The employee confessed to
                                                                        to carry ﬁrearms. We have since been coordinating the case
       investigators when presented with video evidence of the
                                                                        with the Assistant U.S. Attorney’s Oﬃce and have been
       crime.
                                                                        working towards having the U.S. Postal Inspection Service
                                                                        and U.S. Secret Service continue the investigation.
       During this reporting period, the subject of the investigation
       pled guilty and was sentenced to 12 months of probation,
       ordered to pay a $1,000 ﬁne, and ordered to make $2,184
       of restitution to the Library of Congress. This Library
       currently has a pending adverse action for removal of this
       employee.




10 Semiannual Report to the Congress
Computer Security Incident


The Library’s Integrated Technology Services Security
Operations Center reported that an organization had placed
the entire inventory of Congressional Research Service
(CRS) reports for Congress online at a public Web site,
thereby providing direct public access to more than 6,700
CRS products that were not intended for public release.
We conducted preliminary interviews and determined that
the security breach might have been attributable to a hacker
or to a Library or Congressional employee who exceeded
their authority to release the reports. We referred this case
to the FBI in March 2009 after our special agents lost their
authority to carry ﬁrearms. The FBI has not yet advised us
if they will pursue this investigation.


Inadequate Cash Handling Procedures


While investigating a suspected employee theft allegation,
we found inadequate cash handling practices that we
addressed to senior management via a Management Impact
Alert. The most serious ﬁnding was management’s failure
to comply with the requirements of the U.S. Treasury
Financial Manual regarding cash management and
timeliness of deposits when they allowed $47,000 in cash
receipts from Library photocopy machines to remain in
a safe for several months. Many employees had access to
the safe without adequate oversight. The theft allegation
remains unresolved because the division has no practical
method of determining how much cash employees have
collected from photocopy machines.




                                                                Semiannual Report to the Congress 11
       Follow-up on Investigative Issues
       From Prior Semiannual Reports

       Identity Theft


       As we previously reported, an investigation into the theft of
       10 employees’ identities revealed that a Library employee
       was selling personally identiﬁable information to an
       individual outside the Library for use in criminal activities.
       This activity resulted in a cost of about $83,000 to the
       Library for credit monitoring services and approximately
       $120,000 in fraud-related losses to local businesses.


       During this reporting period, we arrested the non-Library
       subject of investigation on a four-count federal indictment
       for conspiracy, wire fraud, aggravated identity theft, and
       ﬁrst degree fraud. The subject pled guilty and is awaiting
       sentencing.


       The Library employee, who had resigned immediately after
       we executed a search warrant on his residence, was charged
       in a one-count Information ﬁling for his role in the identity
       theft scheme and has subsequently pled guilty to conspiracy
       to commit wire fraud. As part of the plea agreement, the
       subject faces a possible penalty of 15 to 33 months of
       incarceration as well as any ﬁnes decided by the court.

       Child Pornography


       The subject of a prior investigation, a Library employee who
       plead guilty to possession of more than 300 computer ﬁles
       containing child pornography, was sentenced on April 21,
       2009 to one year and one day in prison and 96 months of
       supervised probation.




                                                                  Facing Page: Closeup of a mosaic of Minerva, goddess of wisdom and mythological
                                                                  protector of the arts and sciences, by Elihu Vedder. Staircase leading to the visi-
                                                                  tors’ gallery overlooking the main reading room, Thomas Jefferson building


12 Semiannual Report to the Congress
Semiannual Report to the Congress 13
Unimplemented Recommendations

Table 3A:           Significant Recommendations from Previous Semiannual
                    Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
       Subject                                 Office       Rec. No. Summary and Status of Recommendations
                            Issue Date

Oﬃce of the Chief Financial Oﬃcer (OCFO)
                                                                     Coordinate more closely the Workforce Transformation and
                                                                     Workforce Performance eﬀorts–The Library continues to
                                                                     move forward on implementing performance management
                                               Strategic
Performance-Based          2004-FN-501                               goals in its service/support units. Some areas are now
                                           Planning Oﬃce/     IV
Budgeting                 September 2006                             applying annual performance goals down to the employee
                                            Budget Oﬃce
                                                                     level. Human Resources Services (HRS) will pilot the
                                                                     ePerformance module of the EmpowHR system to automate
                                                                     the performance management process this year.

                                                                     Revise Financial Services Directive 05-02–A new directive
                                                                     has been drafted deﬁning deposit requirements including
Disbursing Oﬃce            2007-PA-103       Disbursing
                                                              II.a   time frames for movement of receipts from originating
Controls                  September 2008       Oﬃce
                                                                     departments. The draft directive is under review and
                                                                     targeted for implementation before FY 2009.

                                                                     Pursue development of an automated interface for
                                                                     transmitting electronic payments–The Chief Financial
Disbursing Oﬃce            2007-PA-103       Disbursing
                                                              II.d   Oﬃcer (CFO) is still researching with the Momentum (the
Controls                  September 2008       Oﬃce
                                                                     Library’s ﬁnancial system) vendor options for developing an
                                                                     automated interface.

                                                                     Seek the funding necessary to ensure backup power is
                                                                     available at the alternate facility–The Library determined
Disbursing Oﬃce            2007-PA-103       Disbursing
                                                             IV-1    that a backup power source would be cost-prohibitive, and
Controls                  September 2008       Oﬃce
                                                                     is instead planning to relocate the site to a facility which
                                                                     already has backup power.

Oﬃce of Security and Emergency Preparedness (OSEP)

                                                                     Develop or obtain a threat/risk assessment–OSEP is
Emergency                  2005-PA-104                               determining the Library’s vulnerabilities in coordination
                                               OSEP           III
Preparedness Program       March 2006                                with all Library units and will coordinate the risk assessment
                                                                     with the U.S. Capitol Police.

Copyright Oﬃce (COP)
                                                                     Determine the specialist staﬃng level needed over the next
                                                                     few years to process incoming, and eliminate the backlog
Conditions in                                                        of unprocessed, claims–When the mix of weekly receipts
the Processing of         September 2008        COP            3     stabilizes Copyright will determine the optimal staﬃng
Copyright Claims                                                     level in the Registration and Recordation Program and
                                                                     begin moving staﬀ from the front-end operation to the
                                                                     back-end operation.




14 Semiannual Report to the Congress
Table 3A:           Significant Recommendations from Previous Semiannual Reports
                    For Which Corrective Action Has Not Been Completed
                           Report No. and
        Subject                                 Office         Rec. No.    Summary and Status of Recommendations
                             Issue Date

Human Resources Services (HRS)

                                                                          Establish a supervisor’s manual–HRS completed the draft
                                                Human
The Library’s Human         2005-AT-902                                   Supervisor’s Manual and is circulating it to the Operations
                                               Resources        II.c
Resources Policies          March 2007                                    Committee for comments. Target date for completion and
                                                Services
                                                                          Library-wide distribution is April 2009.

Library Services (LS)

                                                                          Develop a decision model for determining reading
                                                                          room space requirements–Library Services is collecting
Utilization of Reading      2003-PA-104
                                            Library Services    II.1      data through the end of the ﬁscal year. OIG Note: This
Rooms                       March 2004
                                                                          recommendation has been open since 2004, and we urge
                                                                          the Library to promptly take action.
                                                                          Use the decision model to make decisions about reading
                                                                          room, oﬃce space, and storage requirements–Library
                                                                          Services states that it is still not clear whether more reading
                                                                          rooms in the Jeﬀerson Building may be repurposed. Further,
Utilization of Reading      2003-PA-104
                                            Library Services    II.2      it states that it needs more information about possible space
Rooms                       March 2004
                                                                          reprogramming to implement an eﬀective decision model.
                                                                          OIG Note: As with the previous recommendation, this
                                                                          one has been open for more than four years. We urge the
                                                                          Library to promptly take action.
                                                                          Develop and communicate to recommending oﬃcers
                                                                          criteria for recommending activities–Library Services
Collections                 2006-PA-104
                                            Library Services    III.1     will determine in FY 2009 how to implement consistent
Acquisitions Strategy      December 2006
                                                                          standards, taking into account the recommendations of the
                                                                          strategic working group.

Oﬃce of Strategic Initiatives (OSI)

                                                                          Compare the cost of alternative service providers to ﬁnd
                                             Information                  the best value to the Library–OCGM negotiated improved
Long-Distance               2007-CA-101
                                             Technology           I       long-distance pricing for FY 2009. Additional price reviews
Telephone Service            March 2008
                                               Services                   will be done to include alternative providers for the FY
                                                                          2010 service contract.
                                                                          ITS should: 1) develop and implement written procedures
                                                                          to guide and control the long-distance bill review and 2)
                                                                          explore acquiring a new automated system to provide more
                                             Information
Long-Distance               2007-CA-101                                   eﬀective accounting for the Library’s telephone calls–ITS
                                             Technology          II
Telephone Service            March 2008                                   is in the process of developing standard written procedures
                                               Services
                                                                          to guide and control the long-distance review and payment
                                                                          approval process; in lieu of acquiring a new automated call
                                                                          accounting system, ITS upgraded its existing system.




                                                                                          Semiannual Report to the Congress 15
Unimplemented Recommendations
 Table 3A:        Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Has Not Been Completed
                           Report No. and
        Subject                                  Office        Rec. No.    Summary and Status of Recommendations
                             Issue Date


Integrated Support Services (ISS)



Facilities Design &         2006-PA-107       Integrated                  Place a priority on completing the Project Delivery Manual–
                                                                II.1
Construction               September 2007   Support Services              Completion of a draft is scheduled for April 2009.


                                                                          Implement post occupancy evaluations to assess the
Facilities Design &         2006-PA-107       Integrated                  outcome of its design eﬀorts–ISS completed the post
                                                                II.5
Construction               September 2007   Support Services              occupancy evaluation survey project and plans to begin
                                                                          issuing it during the second half of FY 2009.

                                                                          Establish goals for the completion of the FAST service
                                                                          requests, by type of request–ISS is developing a work order
Facilities Design &         2006-PA-107       Integrated
                                                                V. 1      subsystem for its FAST system to implement goals for
Construction               September 2007   Support Services
                                                                          service requests by type. The new subsystem is scheduled
                                                                          for completion in the 3rd quarter of FY 2009.
                                                                          Create a “triage” system to reorder and allocate resources
                                                                          based on its current workload and resource balance–ISS
                                                                          is purchasing a pilot subscription to “Tririga Project,” a
Facilities Design &         2006-PA-107       Integrated
                                                                V. 2      Web-based project management tool to enable FD&C to
Construction               September 2007   Support Services
                                                                          identify project resource allocations and reorder as necessary.
                                                                          FD&C expects to test the system during the 4th quarter of
                                                                          FY 2009.
                                                                          Establish timeframes for the completion of various project
Facilities Design &         2006-PA-107       Integrated
                                                                V. 3      types–FD&C will establish timeframes of various projects
Construction               September 2007   Support Services
                                                                          after it ﬁnalizes its Project Delivery Manual.
                                                                          Critically analyze its strategy for providing storage space
                                                                          for materials in order to determine the best storage strategy
Requirements Analysis
                                                                          for various types of materials–Beginning in May 2009,
for the Proposed            2006-SP-802       Integrated
                                                                  I       Logistics Services plans to visit each service/support unit
Fort Meade Logistics        March 2008      Support Services
                                                                          that is storing material in the warehouse to determine
Center
                                                                          candidates for disposal and to strategize on how to reduce
                                                                          ineﬃcient storage of material.
                                                                          Reevaluate three questionable surge allowances–In May
Requirements Analysis
                                                                          2009, ISS will meet with each service/support unit that is
for the Proposed            2006-SP-802       Integrated
                                                                 III      storing material in the warehouse to discuss materials held
Fort Meade Logistics        March 2008      Support Services
                                                                          at Landover. Based on the results of these meetings, ISS
Center
                                                                          will revise the surge requirements by August 30, 2009.
                                                                          Recalculate the growth factor starting from a “clean” baseline
                                                                          and consider leasing storage space on an as-needed basis to
Requirements Analysis                                                     accommodate potential growth in storage requirements–
for the Proposed            2006-SP-802       Integrated                  Logistics Services will evaluate the growth factors after
                                                                 IV
Fort Meade Logistics        March 2008      Support Services              it completes its meetings with the service/support units
Center                                                                    in May 2009. ISS/Facility Services is working with the
                                                                          Architect of the Capitol to evaluate various occupancy
                                                                          scenarios, including commercial lease alternatives.




16 Semiannual Report to the Congress
Table 3A:         Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Has Not Been Completed
                        Report No. and
        Subject                               Office        Rec. No.      Summary and Status of Recommendations
                          Issue Date

                                                                         Work with other Library managers to improve instructions
                                                                         for mailing documents to the Library and determine if
Mail Handling and Its
                         2007-PA-104       Integrated                    alternate packaging might reduce damage to mailed items–
Eﬀects On Collections                                          I.b
                        September 2008   Support Services                ISS is piloting a Web site revision that will include shipping
and Security
                                                                         and packaging recommendations for reducing damage from
                                                                         the mail screening process.
                                                                         Consider implementing an automated system that includes
                                                                         components for tracking Federal Employees’ Compensation
Federal Employees’
                         2008-PA-102     Health Services                 Act claims and alerting ISS of upcoming reporting
Compensation Act                                                II
                        September 2008       Oﬃce                        deadlines–Due to budget constraints in FY 2009, ISS has
Program
                                                                         deferred this purchase to later in the ﬁscal year, depending
                                                                         on the availability of funds.

Federal Employees’
                         2008-PA-102     Health Services                 Revise Library of Congress Regulation (LCR) 2018-5 as a
Compensation Act                                               IV
                        September 2008       Oﬃce                        priority–A draft LCR is ready for review.
Program


Oﬃce of the Librarian

                                                                         Revise LCR 2020-7 to allow complainants to use dispute
                                            Oﬃce of
                                                                         resolution during the formal complaint process–The Acting
Dispute Resolution       2002-PA-104      Opportunity,
                                                               III       Director of the Oﬃce of Opportunity, Inclusiveness, and
Center                  September 2003    Inclusiveness,
                                                                         Compliance (OIC) has implemented this recommendation
                                         and Compliance
                                                                         but it has not yet been formally documented in an LCR.

                                            Oﬃce of
Equal Employment                                                         Evaluate and revise LCR 2010-3.1–As soon as the
                        2001-PA-104       Opportunity,
Opportunity                                                     I        reorganized OIC is staﬀed, the LCR will be rewritten to
                        February 2003     Inclusiveness,
Complaints Oﬃce                                                          include this change.
                                         and Compliance

                                                                         Continue coordinating with the CFO to identify
                                                                         opportunities for modifying/improving Momentum–
Oﬃce of Contracts–
                         2007-PA-102        Oﬃce of                      Oﬃce of Contracts and Grants Management (OCGM) has
Service Remains Less                                           IV
                        September 2007      Contracts                    engaged the assistance of the CFO, ITS, the Momentum
Than Satisfactory
                                                                         contractor, and an ITS contractor to improve contract
                                                                         functionality and workﬂow.
                                                                         Establish and issue policy that oﬃcially implements details
Oﬃce of Contracts–                                                       of the Oﬃe of Management and Budget’s acquisition
                         2007-PA-102        Oﬃce of
Service Remains Less                                            V        training policy–OCGM conducted a training needs
                        September 2007      Contracts
Than Satisfactory                                                        assessment for its staﬀ in March 2009. It is analyzing the
                                                                         data and developing a plan of action.
                                                                         The Library’s general lack of compliance with certain Federal
                                                                         Acquisition Regulation (FAR) requirements may be due in
Lack of Compliance
                                                               Non       part to uncertainty regarding whether it is Library policy
with Library             2008-SP-101        Oﬃce of
                                                            Compliance   to implement those requirements–OCGM is working with
Contracting Policy is    March 2008         Contracts        Reason 4
                                                                         the Oﬃce of General Counsel and the CFO to review and
Widespread
                                                                         eliminate uncertainties between the Library’s contracting
                                                                         policies and the FAR.




                                                                                         Semiannual Report to the Congress 17
Unimplemented Recommendations
Table 3A:          Significant Recommendations from Previous Semiannual Reports
                   For Which Corrective Action Has Not Been Completed
                         Report No. and
       Subject                                Office        Rec. No.    Summary and Status of Recommendations
                           Issue Date

                                                                       For the Raiser’s Edge System, the Development Oﬃce
                                                                       should: 1) document its access control policy, and 2) revise
Raiser’s Edge             2006-IT-302      Development
                                                               I       password access to comply with Information Technology
Software Program         December 2007        Oﬃce
                                                                       Security Directive 02 requirements–These required a
                                                                       software upgrade, which is now being tested.
                                                                       The Director of The Development Oﬃce should ensure
Raiser’s Edge             2006-IT-302      Development                 that the Raiser’s Edge system undergoes Certiﬁcation
                                                              II
Software Program         December 2007        Oﬃce                     and Accreditation (C&A)–The process has started; ITS is
                                                                       currently conducting the security review.
                                                                       System managers for Raiser’s Edge should regularly review
Raiser’s Edge             2006-IT-302      Development
                                                              III      the system’s transaction logs for suspect data events–These
Software Program         December 2007        Oﬃce
                                                                       required a software upgrade, which is now being tested.
                                                                       The Library should assess its diversity program annually using
                                             Oﬃce of
                                                                       the EEOC’s MD-715 criteria and develop a plan to achieve
Diversity Management      2008-SP-104      Opportunity,
                                                             II.1      essential elements in the model–This recommendation will
Program                    July 2008       Inclusiveness,
                                                                       be implemented in the long term as the Library acquires
                                          and Compliance
                                                                       enough data to perform annual assessments.

                                             Oﬃce of                   The Library should give a copy of the current EEO policy
Diversity Management      2008-SP-104      Opportunity,                statement to HRS to be included in all new employee
                                                             II.2
Program                    July 2008       Inclusiveness,              orientation packets–The Acting Director is in the process of
                                          and Compliance               rewriting the EEO policy regulation.

                                                                       The Library should develop a tracking system that will notify
                                                                       the OIC when an employee is promoted to a supervisor and
                                             Oﬃce of                   then disseminate the EEO policy atatement to the newly
Diversity Management      2008-SP-104      Opportunity,                appointed supervisors on an ongoing basis–The Acting
                                                             II.3
Program                    July 2008       Inclusiveness,              Director has developed the requirements document for a
                                          and Compliance               tracking system and plans to submit a request for proposal
                                                                       (RFP) in May, 2009 to purchase an oﬀ-the-shelf tracking
                                                                       system.
                                                                       Track promotions and performance evaluations to
                                             Oﬃce of
                                                                       determine whether there is consistency among groups–The
Diversity Management      2008-SP-104      Opportunity,
                                                             II.5      Acting Director has developed the requirements document
Program                    July 2008       Inclusiveness,
                                                                       for a tracking system, and plans to submit a RFP in May
                                          and Compliance
                                                                       2009 to purchase an oﬀ-the-shelf tracking system.




18 Semiannual Report to the Congress
Table 3A:        Significant Recommendations from Previous Semiannual Reports
                 For Which Corrective Action Has Not Been Completed
                       Report No. and
       Subject                              Office        Rec. No.    Summary and Status of Recommendations
                         Issue Date

                                                                     Develop means to conduct an in-depth analysis of the
                                                                     separations to identify trends that will assist management in
                                                                     determining reasons behind separation rates of minorities
                                           Oﬃce of
                                                                     and females–The Acting Director has taken steps to acquire
Diversity Management    2008-SP-104      Opportunity,
                                                           II.6      a tracking system which will provide the raw data needed
Program                  July 2008       Inclusiveness,
                                                                     for this analysis, and in addition, has proposed an analyst
                                        and Compliance
                                                                     position in OIC to conduct the analyses. As with many other
                                                                     recommendations for this oﬃce, it will be implemented in
                                                                     the long term, as suﬃcient data is collected.
                                                                     Organize a facilitative workshop with program supervisors,
                                           Oﬃce of
                                                                     HRS and OIC staﬀ to discuss identiﬁed barriers–The Acting
Diversity Management    2008-SP-104      Opportunity,
                                                           II.7      Director believes that data acquired through a tracking
Program                  July 2008       Inclusiveness,
                                                                     system will enable OIC to identify barriers and allow the
                                        and Compliance
                                                                     oﬃce to better improve access.
                                           Oﬃce of                   Convene a Hispanic Employment Work Group to develop
Diversity Management    2008-SP-104      Opportunity,                sound strategies to improve Hispanic representation–
                                                           II.8
Program                  July 2008       Inclusiveness,              The Acting Director is working on implementing the
                                        and Compliance               recommendation.
                                                                     Conduct exit interviews to determine why staﬀ leave
                                           Oﬃce of
                                                                     and identify employee perceptions about organizational
Diversity Management    2008-SP-104      Opportunity,
                                                           II.9      commitment to diversity–HRS has developed a survey
Program                  July 2008       Inclusiveness,
                                                                     instrument that seeks to identify the reasons why staﬀ leave
                                        and Compliance
                                                                     and plans to implement it by July 2009.

                                           Oﬃce of                   Identify the critical senior level and management positions
Diversity Management    2008-SP-104      Opportunity,                and focus training, career development, and mentoring
                                                            III
Program                  July 2008       Inclusiveness,              programs–The Library is currently developing a program,
                                        and Compliance               to be announced during FY 2010.

                                                                     The Library should make its “No Fear” data available to
                                           Oﬃce of
                                                                     staﬀ via the Library’s staﬀ intranet Web site and benchmark
Diversity Management    2008-SP-104      Opportunity,
                                                            IV       this data against other federal agencies of similar size–
Program                  July 2008       Inclusiveness,
                                                                     The Acting Director is working on implementing the
                                        and Compliance
                                                                     recommendation.




                                                                                     Semiannual Report to the Congress 19
Implemented Recommendations
Table 3B:         Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                           Report No. and
       Subject                                  Office         Rec. No.   Summary of Recommendations and Actions
                             Issue Date

Integrated Support Services (ISS)
                                                                          Refer to the General Counsel supervisors who compromise
Federal Employees’                                                        the program by not signing claim forms or interfere with
                            2008-PA-102     Health Services
Compensation Act                                                 I.1      employees submitting claims–Written procedures now
                           September 2008       Oﬃce
Program                                                                   document the process for referring violators and imposing
                                                                          ﬁnes and penalties for delaying the process.

Federal Employees’                                                        Oﬀer supervisory training so that supervisors gain an
                            2008-PA-102     Health Services
Compensation Act                                                 1.2      understanding of their role in the process–Supervisory
                           September 2008       Oﬃce
Program                                                                   training is available.


                                                                          Fully explain the workers’ compensation program and
Federal Employees’                                                        its process to employees–Enhanced communication and
                            2008-PA-102     Health Services
Compensation Act                                                 1.3      notiﬁcation procedures have been implemented to apprise
                           September 2008       Oﬃce
Program                                                                   employees of their rights and to request assistance in
                                                                          identifying delays.

                                                                          Discuss with HRS the data needed on separated employees–
                                                                          The Chief Medical Oﬃcer is working with ITS to retrieve
Federal Employees’
                            2008-PA-102     Health Services               and download data into its system for employees who have
Compensation Act                                                  III
                           September 2008       Oﬃce                      separated, retired, or transferred from the Library. Also,
Program
                                                                          the ISS Automation Oﬃce has been entering this data from
                                                                          paper records.
                                                                          Collect the information needed to eﬀectively forecast the
Facilities Design &         2006-PA-107       Integrated                  staﬃng resources required by FD&C–The forecasting
                                                                 I.1
Construction               September 2007   Support Services              information was collected and staﬃng forecasts
                                                                          completed.
                                                                          Assess the long-term eﬀects of irradiation on collection
Mail Handling and Its                                                     items–The Preservation Directorate Research and Testing
                            2007-PA-104       Integrated
Eﬀects on Collections                                             I.a     division tests all materials that are procured for preservation
                           September 2008   Support Services
and Security                                                              use to make sure they meet rigorous Library standards for
                                                                          performance and durability.
                                                                          Consider pursuing an exemption from the irradiation
                                                                          process for Copyright’s incoming mail or design procedures
Mail Handling and Its
                            2007-PA-104       Integrated                  for incoming items to take advantage of existing irradiation
Eﬀects on Collections                                             I.c
                           September 2008   Support Services              process exceptions–The Library has been advised by
and Security
                                                                          Congress that an exemption for Copyright will not be
                                                                          allowed, therefore, we are closing this recommendation.
                                                                          Review current mail handling procedures and revise them
Mail Handling and Its                                                     as necessary to close existing security gaps–ISS research
                            2007-PA-104       Integrated
Eﬀects on Collections                                             II      indicated all mail processed by the Postal Service addressed
                           September 2008   Support Services
and Security                                                              to all Library of Congress locations is subjected to bio-
                                                                          detection screening.




20 Semiannual Report to the Congress
     Table 3B:         Significant Recommendations from Previous Semiannual Reports
                       For Which Corrective Action Was Completed During This Period
                                Report No. and
             Subject                                    Office           Rec. No.   Summary of Recommendations and Actions
                                  Issue Date

                                                                                    Enforce the mail service contract requirement for statistical
                                                                                    data on mail service performance and collect, analyze, and
     Mail Handling and Its                                                          centralize data that tracks mail service performance–ISS
                                 2007-PA-104         Integrated
     Eﬀects on Collections                                                 III      monitors all mail and distribution statistics that are required
                                September 2008     Support Services
     and Security                                                                   to be provided to the Library and is in contact with the
                                                                                    House of Representatives for the oﬀ-site mail processing
                                                                                    center to receive any statistics aﬀecting the Library.

     Library Services (LS)

                                                                                    Review the collections policy statements at least once every
     Collections                 2006-PA-104                                        ﬁve years–Updated versions of approximately 75 collections
                                                   Library Services        II.3
     Acquisitions Strategy      December 2006                                       policy statements have been placed on-line for general staﬀ
                                                                                    review.

                                                                                    Consider creating a full-time Digital Subscription Manager–
     Collections                 2006-PA-104                                        Library Services has assigned this duty to a position which
                                                   Library Services        IV.2
     Acquisitions Strategy      December 2006                                       already handles electronic resources acquisitions and
                                                                                    processing matters.

     Oﬃce of Strategic Initiatives (OSI)
                                                                                    More eﬀective procedures to monitor costs are needed–
     Financial Management         2006-PA-105                                       OSI hired personnel to monitor and conduct oversight
                                                       NDIIPP               I
     Policies of the NDIIPP1      March 2007                                        of cooperative grant agreements and revised ﬁnancial
                                                                                    monitoring procedures for those agreements.
                                                                                    Improve oversight of NDIIPP partners’ matching
     Financial Management         2006-PA-105                                       requirements–OSI hired personnel to monitor and conduct
                                                       NDIIPP               II
     Policies of the NDIIPP       March 2007                                        oversight of cooperative grant agreements and revised
                                                                                    ﬁnancial monitoring procedures for those agreements.
                                                                                    Formalize and fully implement NDIIPP draft procedures–
     Financial Management         2006-PA-105                                       OSI hired personnel to monitor and conduct oversight
                                                       NDIIPP              III
     Policies of the NDIIPP       March 2007                                        of cooperative grant agreements and revised ﬁnancial
                                                                                    monitoring procedures for those agreements.
     Copyright Oﬃce (COP)
                                                                                    Enhance incentives oﬀered to the public to reduce the
                                                                                    volume of paper claims that are submitted for processing
     Conditions in the
                                                                                    and to stop the growth of the backlog of claims–Copyright
     Processing of Copyright    September 2008          COP
                                                                                    submitted to Congress a new fee schedule that provides
     Claims
                                                                                    enhancements for electronic ﬁling and requirements for
                                                                                    deposit account holders to ﬁle electronically.
     Conditions in the
                                                                                    Promptly ﬁll the oﬃce’s 10 vacant Specialist positions to
     Processing of Copyright    September 2008          COP
                                                                                    process copyright claims–The positions have been ﬁlled.
     Claims




1
    National Digital Information Infrastructure & Preservation Program


                                                                                                  Semiannual Report to the Congress 21
Implemented Recommendations
Table 3B:         Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                        Report No. and
       Subject                                 Office        Rec. No.       Summary of Recommendations and Actions
                          Issue Date

Oﬃce of the Librarian

                                                                           Mandate a Library-wide succession planning program
                         2004-PA-105        Oﬃce of the                    that endows HRS with a strong leadership role–The ﬁnal
Succession Planning                                            I.1
                         March 2005          Librarian                     version of the succession plan was posted on the Library’s
                                                                           intranet in April 2009.
                                                                           Establish and issue the procurement policy and procedures
                         2007-PA-102        Oﬃce of the
Oﬃce of Contracts                                              III         manual referred to in LCR 2110–OCGM implemented its
                        September 2007       Librarian
                                                                           “Contracts Operating Manual” as of December 31, 2008.
                                                                           The Library should develop a detailed program for
                                              Oﬃce of
                                                                           managers and supervisors based on the MD-715–The OIC
Diversity Management     2008-SP-104        Opportunity,
                                                               II.4        will provide under-representation data and information to
Program                   July 2008         Inclusiveness,
                                                                           managers and supervisors as a means to share relevant MD-
                                           and Compliance
                                                                           715 data.
Oﬃce of the Chief Financial Oﬃcer (OCFO)
                                                                           Redesign the Momentum workﬂow process for Copyright
                                                                           deposit account activity to designate a Copyright oﬃcial to
Disbursing Oﬃce          2007-PA-103         Disbursing
                                                                I          approve its deposit transactions–The workﬂow process has
Controls                September 2008         Oﬃce
                                                                           been redesigned and Copyright now reviews and approves
                                                                           its deposits.
                                                                           Improve internal controls over data entry to the Momentum
Disbursing Oﬃce          2007-PA-103         Disbursing                    vendor master ﬁle (VMF)–Internal controls have been
                                                               II.b
Controls                September 2008         Oﬃce                        revised to assure adequate segregation of duties for entry
                                                                           of VMF data.
                                                                           Track usage of the check signing machine and revise
                                                                           procedures for receiving check stock–The Disbursing
Disbursing Oﬃce          2007-PA-103         Disbursing                    Oﬃce is now tracking, recording, and reconciling check
                                                               II.c
Controls                September 2008         Oﬃce                        writing machine useage. OCFO revised procedures for
                                                                           receiving and controlling the new check stock to prevent
                                                                           unauthorized access.
                                                                           Determine whether background investigations were
Disbursing Oﬃce          2007-PA-103         Disbursing                    conducted for the Disbursing Oﬃcer and staﬀ member–
                                                               II.e
Controls                September 2008         Oﬃce                        Background investigations were completed and placed in
                                                                           employees’ personnel ﬁles.
                                                                           Determine whether a method for automatically voiding a
                                                                           payment cancellation can be incorporated into Momentum–
Disbursing Oﬃce          2007-PA-103         Disbursing
                                                              III-1        An automated method could not be devised to void
Controls                September 2008         Oﬃce
                                                                           cancelled payments; however, OCFO has implemented
                                                                           enhanced procedures for reviewing these transactions.
                                                                           Review and revise procedures for tracking, correcting, and
Disbursing Oﬃce          2007-PA-103         Disbursing                    writing oﬀ rejected vendor payments to expedite their
                                                              III-2
Controls                September 2008         Oﬃce                        resolution–Procedures have been revised for tracking,
                                                                           correcting, and writing oﬀ rejected vendor payments.
                                                                           Designate backup staﬀ and enhance supplies for the
Disbursing Oﬃce          2007-PA-103         Disbursing                    Continuity of Operations Program site–Staﬀ has been
                                                              IV-2
Controls                September 2008         Oﬃce                        assigned the recommended backup duties and supplies
                                                                           have been enhanced as recommended.
                                                                    Facing Page: Mosaic of the goddess Minerva, staircase leading to the visitors’
                                                                    gallery overlooking the main reading room, Thomas Jefferson Building
                                                                    Photo by Michael Dersin
22 Semiannual Report to the Congress
Semiannual Report to the Congress 23
       Funds Questioned or Put to Better Use
        Table 4:          Audits with Recommendations for Better Use of Funds
        Reports…                                                                             Number                Value
        …for which no management decision was made by the start of the period:                   -                    -

        …issued during the period:                                                               -                    -
                                                                             Subtotal            -                    -
        …for which a management decision was made during the reporting period:

                 value of recommendations agreed to by management                               5                  $1M*

                 value of recommendations not agreed to by management                            -                    -

        …for which no management decision was made by the end of the reporting
                                                                                                 -                    -
        period:

        …for which no management decision was made within six months of
                                                                                                 -                    -
        issuance:


        Table 5:          Audits with Questioned Costs
        Reports…                                                                             Number                Value
        …for which no management decision was made by the start of the period:                  -                    -
        …issued during the period:                                                              -                    -
                                                                             Subtotal           -                    -
        …for which a management decision was made during the reporting period:

                   value of recommendations agreed to by management                             -                    -

                   value of recommendations not agreed to by management                         -                    -

        …for which no management decision was made by the end of the reporting
                                                                                                -                    -
        period:
        …for which no management decision was made within six months of
        issuance:                                                                               -                    -




         *Estimated funds to be put to better use resulting from storing less inventory at the Landover warehouse over a ﬁve-year
         period. Because the Library is short on storage space, it is likely that the space vacated by unnecessary inventory would
         be used by other items. Therefore, this amount represents the opportunity cost of improperly used storage space, as op-
         posed to actual savings.




24 Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.


Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management deci-
sions.


Significant Revised Management Decisions
During the reporting period there were no signiﬁcant revised management decisions.


Follow-up on Prior Period Recommendations
In this semiannual period, we asked management to provide us with actions taken on all open recommendations.
Comments on the status of open recommendations appear in table 3A, and recommendations implemented during
the period appear in table 3B. Unless otherwise noted, comments in tables 3A and 3B represent management’s state-
ments as to actions taken; however, we regularly conduct in-depth follow-ups and verify the implementation of certain
critical recommendations.


Significant Management Decisions
With Which OIG Disagrees
Misuse of Time and Computer


We determined that a GS-15 Congressional Research Service (CRS) employee was spending a signiﬁcant portion of
the work day accessing internet Web sites not related to work. The employee spent a substantial amount of time
accessing personal email and instant messaging applications, as well as sites devoted to gaming, real estate, shopping,
entertainment, and tabloid news.


CRS management responded to our investigative report by discounting the calculations of time the employee spent
on the internet, stating that a signiﬁcant portion of the employee’s internet time could be construed as work-related,
although we could discern no business reason to visit many of the Web sites noted in the logs. CRS management did,
however, state that the employee was counseled regarding his behavior.


The OIG disagrees with CRS management concerning their interpretation of the employee’s internet usage. We believe
disciplinary action was warranted in this case.




                                                                                     Semiannual Report to the Congress 25
      Other Activities
       Inspector General Reform Act of 2008                            in various places, by inserting “inspection reports, and
                                                                       evaluation reports” in addition to the previous language
       The Inspector General Reform Act of 2008 (Public Law            which refered only to audit and investigation reports.
       110-409) (Act) was enacted into law on October 14, 2008.
       It amends the Inspector General Act of 1978 and enhances        Other highlights of the Act, which apply to executive
       the independence of Inspectors General (IG) in a number         branch agencies, are the following:
       of ways. However, most of the provisions do not apply to
       the legislative branch.                                         Section 2, which provides that PASC IGs and DFE IGs
                                                                       shall be appointed without regard to political aﬃliation
       Section 4 of the Act establishes the pay of Presidentially      and solely on the basis of merit;
       appointed, Senate conﬁrmed (PASC), IGs at Executive
       Schedule III plus three percent, and that of Designated         Section 3, which requires that notice of the transfer or
       Federal Entity (DFE) IGs (which include the smaller             removal of an IG must be provided to both houses of
       executive branch agency IGs) at no less than the average pay    Congress no less than 30 days before the action;
       (including bonuses) of that entity’s senior level executives.
       With respect to legislative branch IGs, the Act states only     Section 6, which provides that each PASC IG will obtain
       that, “Nothing in this section shall have the eﬀect of          legal advice from a counsel reporting directly to the IG or
       reducing the rate of pay” of these IGs. On the other hand,      to another IG;
       the prohibition on cash awards or bonuses in Section 5 of
                                                                       Section 7, which requires executive branch members to
       the Act does not apply to legislative branch IGs.
                                                                       provide funding for CIGIE operations;

       Section 7 of the Act establishes the Council of the
                                                                       Section 8, which requires the Oﬃce of Management and
       Inspectors General on Integrity and Eﬃciency (CIGIE)
                                                                       Budget to include in the President’s budget submission the
       to coordinate the plans and activities of the various OIGs,
                                                                       amount requested by the President for each IG, for training,
       develop training policies, maintain a Web site, and make
                                                                       for support of the CIGIE, and, if an IG determines that
       reports to Congress. The section provides that the Library
                                                                       the budget submitted by the President would substantially
       of Congress OIG is a member of this Council. However,
                                                                       inhibit his or her mission performance, any comments by
       as with the case of other legislative branch OIGs, the
                                                                       the aﬀected IG;
       Library OIG participates in the plans, programs, and
       projects of the Council “only to the extent requested by        Sections 10, which allows DFE IGs to apply for statutory
       the member and approved by the Executive chairperson            law enforcement authority;
       and chairperson” of the CIGIE. Such participation may
       include participation in training programs as well as use of    Section 11, which allows DFE IGs to participate in the
       the Integrity Committee, which will review and investigate      Program Fraud Civil Remedies Act;
       meritorious allegations against Inspectors General or other
       senior OIG staﬀ members designated by the IG.                   Section 13, which requires agencies to have a direct link to
                                                                       IG Web sites on their home pages and requires IGs to post
       Section 9, which applies to our oﬃce, expands the list          reports and audits on their Web sites within 3 days of the
       of information that may be obtained by subpoena to              date they become publicly available; and
       speciﬁcally include electronic data and “any tangible
       thing.”                                                         Section 14, which deﬁnes IGs as separate agencies with
                                                                       functions, powers, and duties of the agency head for certain
       Section 12, which also applies to our oﬃce, amends Section      personnel authorities.
       5 of the IG Act of 1978 relating to IG semiannual reporting,
                                                                       Facing Page: The ceiling disc in the northwest pavilion of the Thomas Jefferson
                                                                       building is titled “ambition” and depicts the rider of a winged horse grasping
                                                                       the palm of achievement while competitors reach out empty-handed
                                                                       Photo by Carol M. Highsmith
26 Semiannual Report to the Congress
OIG Loses Authority to Carry Firearms

The FY 2009 Omnibus Legislative Branch Appropriations Act
prohibits the Library’s OIG from using 2009 funds “to purchase,
maintain, or carry any ﬁrearm.”

The impact of this restriction is to impede the ability of our special
agents to fully investigate certain types of crimes and causes us
to have to curtail some ongoing investigations. Because of this
restriction, our investigators have lost the ability to maintain a
ﬁrearms certiﬁcation. As a result, they will not be able to renew
their special deputation from the U.S. Marshals Service. Lacking
deputation, they will be unable to obtain or execute search and
arrest warrants which are necessary to fully develop many types
of criminal cases. For example, we are now unable to properly
investigate identity theft cases like our 2008 case that claimed
10 Library employee victims; this case required that search and
arrest warrants be obtained and executed on multiple suspects.
Weapons are needed for agents’ personal safety, as they cannot
go into a dangerous environment for interviews, surveillance, or
to serve warrants unarmed.




                                                                         Semiannual Report to the Congress 27
      Review of Legislation and Regulations
        Table 6:           Review of Library of Congress Regulations
                   LCR Reviewed                        Comments by the Office of The Inspector General

        LCR 211-5
        Functions and Organization of
                                          We made some comments to help clarify the intent of this proposed LCR.
        the Oﬃce of the Chief Financial
        Oﬃcer

        LCR 1911
        Safeguarding of Classiﬁed         We made some comments to help clarify the intent of this proposed LCR.
        Information

        LCR 1921
        Protection and Disclosure         We made several recommendations that brought more speciﬁcity to the proposed
        of Personally Identiﬁable         LCR.
        Information
        LCR 2025-8
        Policies, Procedures, and         We made some comments to help clarify the intent of this proposed LCR and also
        Remedies to Implement the         the role of the OIG with respect to access to information.
        Americans with Disabilities Act




                                                                     Facing Page: The Pavilion of Arts and Sciences is located in the northeast corner
                                                                     of the Thomas Jefferson building. This photo shows two of the four lunettes by
                                                                     William de Leftwich Dodge, separated by a bas-relief, and gold leaf ceiling discs
                                                                     Photo by Michael Dersin


28 Semiannual Report to the Congress
Semiannual Report to the Congress 29
30 Semiannual Report to the Congress
      Organizational Chart

                                                                       Inspector General
                            Counsel to the IG                                                                     Administrative officer
                                                                       Karl W. Schornagel
                           Judith K. Leader, Esq.                      CPA                                        Sheetal Gupta
                           (part-time)




                          Assistant Inspector                                                             Assistant Inspector
                          General for audits                                                              General for Investigations
                          Nicholas G. Christopher, Esq., CPA                                              Kenneth R. Keeler




          Senior Auditor                            Senior Auditor                          Special Agent                         Special Agent
                                                                                            Pamela D. Hawe                        Kimberly Taylor
          John R. Mech                              Patrick J. Cunningham
                                                                                            (Part-time)                           (Part-time)
          CPA                                       CIA



                                                                                            Special Agent                         Investigator
          Auditor                                   Auditor                                                                       Barbara A. Hennix
                                                                                            Hugh Coughlin
          Cornelia E. Jones                         Jennifer Spruill




                                                                                            Management
           Auditor                                  IT Specialist
                                                                                            Analyst
          Elizabeth Valentin, CPA                   Lawrence Olmsted
                                                                                            Michael R. Peters




          Management                                IT Auditor
          Analyst                                   Vacant
          Peter TerVeer




          Management
          Analyst
          Vacant




Facing Page: Stucco design on the barrel-vaulted ceiling of the Northwest gallery repre-
senting the Congressional Library with the initials “C.L.” Thomas Jefferson building
Photo by Carol M. Highsmith



                                                                                                                Semiannual Report to the Congress 31
INSPECTOR GENERAL HOTLINE

     Help Promote Integrity, Economy, and Efficiency

 Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                    Inspector General

                   Library of Congress
              101 Independence Avenue, S.E.

                          LM-630
               Washington, DC 20540-1060




     Main Telephone Number:     (202) 707-6314

                Fax Number:     (202) 707-6032

   Hotline Telephone Number:    (202) 707-6306

              Hotline E-mail:   oighotline@loc.gov

                    P.O. Box:   15051 S.E. Station
                                Washington, DC 20003


  Any information you provide will be held in confidence.
However, providing your name and a means of communicating
      with you may enhance our ability to investigate.
